January 29, 2021
Via ECF
Scott S. Harris
Clerk of Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re: Chevron Corp. et al. v. County of San Mateo et al., No. 20-884
Motion to Extend Time to File Response to Petition for Writ of Certiorari
Dear Mr. Harris,
I am counsel of record for all Respondents in the above-captioned case. The petition for a
writ of certiorari in this matter was docketed on January 4, 2021. The response is currently due on
February 3, 2021. Pursuant to Rule 30.4, Respondents respectfully request that the time for filing
a response be extended by 60 days, to and including April 5, 2021.
This extension of time is requested due to the press of counsel’s litigation commitments in
other matters, including preparing for the argument heard on January 19, 2021, in a related case,
BP p.l.c. et al. v. Mayor & City Council of Baltimore, No. 19-1189, and preparing responses to
two additional petitions for certiorari for which I am also counsel of record, Chevron Corp. et al.
v. Rhode Island, No. 20-900, and Chevron Corp. et al. v. City of Oakland et al. (filed January 8,
2021, not yet docketed). The extension of time also would facilitate preparation of a response that
the undersigned counsel believes would be most helpful to the Court. Counsel for Petitioners do
not object to this extension of time.

Respectfully submitted,
/s/ Victor M. Sher
Victor M. Sher
Sher Edling LLP
Counsel of Record for Respondents
County of San Mateo, City of Imperial Beach,
County of Marin, County of Santa Cruz,
City of Santa Cruz, and City of Richmond

cc: All Counsel of Record

100 Montgomery Street, Suite1410 − San Francisco, CA 94104

Office: (628) 231-2500 − sheredling.com

